XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-7742
Facsimile: (916) 324-2960
E-Mail: Brian.Means@doj.ca.gov

November 13, 2020
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Rodney Berryman v. Robert Wong, No. 20-5764
Request for Extension of Time

Dear Dear Mr. Harris:
The petition for writ of certiorari in this case was filed September 9, 2020. The response
was due on October 23, 2020. Pursuant to Rule 30.4, Respondent obtained an extension of time
to file his response by November 23, 2020. I have completed drafting the response, but need
additional time in order for the Solicitor General’s Office to complete its review. Therefore,
Respondent requests a 30-day extension of time, to December 23, 2020, for the filing of the
response. An extension would better enable preparation of a response that Respondent believes
would be most helpful to the Court. Petitioner is a prisoner proceeding pro se, and Respondent is
unable to obtain his position on this request.
Sincerely,
/s/ Brian R. Means
BRIAN R. MEANS
Deputy Attorney General
For

BRM:ts
cc: Rodney Berryman Sr., CDC #E03500
San Quentin Prison, San Quentin, CA 94974
SA2020303611
34588629.docx

XAVIER BECERRA
Attorney General

